No. 20-6211
_____________________________________________________________
IN THE SUPREME COURT OF THE UNITED STATES
October Term, 2020
_____________________________________________________________

MICHAEL ROBBINS,
Petitioner
v.
THE PEOPLE OF THE STATE OF CALIFORNIA,
Respondent
On Petition for a Writ of Certiorari
to the Court of Appeal of California, Fourth Appellate District,
Division One
REPLY TO BRIEF IN OPPOSITION

MATTHEW A. SIROKA
(California State Bar No. 233050)
101 Lucas Valley Road, Suite 384
San Rafael, CA 94903
Telephone: (415) 522-1105
Attorney for Petitioner

Petitioner Michael Robbins respectfully submits this Reply
Brief to respondent’s Opposition Brief to the Petition for Writ of
Certiorari.
CERTIORARI IS APPROPRIATE BECAUSE THIS CASE
PRESENTS A VEHICLE WITH WHICH TO GUIDE LOWER
COURTS TO ASSESS THE COMPLEX ISSUES OF RACIAL
BIAS AND MISTRUST OF LAW ENFORCEMENT WITH
WHICH ALL JURORS MUST GRAPPLE
Respondent argues this case does not merit review, because it
involves merely a trial court’s fact-bound determination of
credibility, a judgment which must be granted maximum deference.
Opp. at 11. The record belies such a conclusion. Rather what is at
issue here is the standard which the court used to make a
determination of juror bias; this is a question of law and policy
which this Court is uniquely situated to address. “Although we
know that biased jurors may be dismissed from deliberations
without offending the Constitution, we don’t know precisely what it
means for a juror to be biased.” Williams v. Johnson, 840 F.3d 1006,
1010 (9th Cir. 2016). That is the question presented here.
1

Juror 8’s concern in a nutshell was that the police accepted the
accusations of two White witnesses with credibility problems
without testing their alibis or further investigating. To her mind,
this was reflective of the biases in the system - that White witnesses
accusing Black defendants were given less scrutiny. And, as
respondent admits, there were good reasons to doubt the credibility
of these witnesses. Opp. at 14. Thus Juror 8 was persuaded by the
defense argument that the police’s failure to eliminate other suspects
left room for reasonable doubt. Such a circumstance does not, as
respondent argues, support the trial court’s finding she harbored
“the general belief—untethered from any evidence adduced at
trial—that accusations by White accusers against Black suspects are
inherently untrustworthy, while accusations by non-White accusers
are not.” Pet. App. A at 25.
Juror 8 did express concern and frustration that, in her view,
police were more likely to uncritically accept accusations by White
witnesses against Black defendants. Pet. App. A at 24-25. But did

2

such a view - one that has significant historical support1 - itself
reflect an impermissible bias? Can Juror 8 hold what is likely an
empirically correct view of the social and cultural context of policing
without being declared biased herself? These are the questions this
case presents. They are timely and urgent.
Respondent complains the petition makes no effort to show
that trial court’s ruling was “manifestly erroneous” while at the
same time urging deference to the trial court’s factual determination.
Opp. at 13. What petitioner is challenging here is the definition of
bias - the legal standard - the trial court used to remove Juror 8. The
court’s factual determination can only be evaluated once the
appropriate legal standard has been determined. Respondent fails
to acknowledge that this standard is very much an open question.
As questions about racial bias and policing continue to be at
the heart of civic discourse and public policy, we should expect that

1

For an historical overview of the influence of race on
credibility assessments, see Sheri L. Johnson, The Color of Truth:
Race and the Assessment of Credibility, 1 MICH. J. RACE & L. 261
(1996).
3

these issues will continue to find their way into the jury room.
Courts must have a clear set of standards they can apply when
emotionally charged discussions of racial issues arise. The court can
use this case to help develop such a set of standards.
In addition, respondent fails to fully address the other
significant issues this case presents - whether dismissal of a lone
holdout juror can be proper when she views the case as weaker than
her fellow jurors. Respondent acknowledges a juror cannot be
excused merely because of a different view of the evidence. Opp. at
13. But what about here, where the juror is dismissed for alleged
bias manifesting (at least in part) as a belief in the inadequacy of the
government’s investigation, which is itself the defense theory of the case?
Respondent argues this “is not a case in which a juror expressed a
general skepticism of law enforcement in cases involving Black
suspects in considering the facts of the circumstances of the case
before her.” Opp. at 15. On the contrary, that’s precisely what it is.
Juror 8 was confronted with the police’s inexplicable failure to
conduct any follow up investigation on two White witnesses who
4

had opportunity and potentially motive to commit the offense.
These two witnesses had credibility problems, and yet the police
appeared to uncritically accept their stories, which all pointed to
petitioner as the culprit. Considering these circumstances, Juror 8
was justified in her skepticism.
The Court should grant certiorari, to address head-on whether
observations about demonstrative racial bias in the justice system,
itself constitutes racial “bias,” in order to provide guidance to lower
courts.
CONCLUSION
The Court should grant certiorari.

Dated: February 9, 2021

Respectfully submitted,
/s/ Matthew A Siroka
MATTHEW A. SIROKA
Attorney for Petitioner

5

